APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Clarke v. AMN
Services, LLC, No. 19-55784 (Feb. 8,
2021)............................................................. App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Clarke v. AMN
Services, LLC, No. 19-55784 (May 7,
2021)........................................................... App-21
Appendix C
Opinion, United States District Court
Central District of California, Clarke v.
AMN Services, LLC, No. 2:16-cv-04132
(June 26, 2018) .......................................... App-23
Appendix D
Relevant Statute and Regulation ............. App-32
29 U.S.C. §207 .................................... App-32
29 C.F.R §778.217 .............................. App-37

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 19-55784
________________
VERNA MAXWELL CLARKE, an individual on behalf of
herself and others similarly situated; LAURA
WITTMANN, an individual on behalf of herself and
others similarly situated,
v.

Plaintiffs-Appellants,

AMN SERVICES, LLC, DBA Nursechoice,
Defendant-Appellee.
________________
Filed: February 8, 2021
________________
Before: BALDOCK *, J., BERZON, J., and
COLLINS, J., Circuit Judges.
________________
OPINION
________________
BERZON, Circuit Judge:
When Verna Clarke and Laura Wittmann
(“Plaintiffs”) worked as clinicians for AMN Services,
*
The Honorable Bobby R. Baldock, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App-2
LLC (“AMN”), they were paid both a designated
hourly wage and an amount denominated a weekly per
diem benefit. On behalf of two certified classes of
employees who have worked for AMN at facilities
more than 50 miles away from their tax homes
(“traveling clinicians”), Clarke and Wittmann allege
that their weekly per diem benefits were improperly
excluded from their regular rate of pay under the Fair
Labor Standards Act (“FLSA”), 29 U.S.C. §§201-219,
thereby decreasing their wage rate for overtime hours.
The FLSA generally prohibits an employer from
requiring an employee to work longer than forty hours
in any workweek unless the employer pays for the
excess hours an overtime wage of “not less than one
and one-half times the regular rate” to the employee.
29 U.S.C. §207(a)(1). In calculating the regular rate
paid to the employee, the FLSA excludes several
categories of payments, including:
[P]ayments made for occasional periods when
no work is performed due to vacation, holiday,
illness, failure of the employer to provide
sufficient work, or other similar cause;
reasonable payments for traveling expenses,
or other expenses, incurred by an employee in
the furtherance of his employer’s interests
and properly reimbursable by the employer;
and other similar payments to an employee
which are not made as compensation for his
hours of employment.
Id. §207(e)(2).
Plaintiffs assert that the per diem payments AMN
paid them when they worked away from home
operated as wages and so should have been included

App-3
in the calculation of Plaintiffs’ regular rate of pay for
purposes of overtime rate. AMN avers that Plaintiffs’
per diem benefits were not wages but, instead,
reasonable reimbursement for work-related expenses
incurred while traveling on assignment and were
therefore properly excluded under the FLSA from the
overtime rate calculation. 1 So the central inquiry in
this case is whether the per diem payments were
properly excluded from the regular rate. We hold the
record establishes that the contested benefits
functioned as compensation for work rather than as
reimbursement for expenses incurred, and that the
per diem benefits were thus improperly excluded from
Plaintiffs’ regular rate of pay for purposes of
calculating overtime pay.
I.
A.
AMN is a healthcare staffing company that places
hourly
workers
on
short-term
assignments
2
throughout the United States. AMN pays clinicians a
per diem amount that is, in part, based on the federal
The Internal Revenue Service permits employers to pay per
diems and travel expenses from an “accountable plan.” Per diems
so paid need not be reported as wages and are tax-exempt. 26
C.F.R. §1.62-2(c)(4). Accountable plans must cover only expenses
connected to the business that are substantiated, either
individually or by reasonably calculating a per diem payment. Id.
§1.62-2(d). Accountable plans also require employees to return
amounts in excess of individually substantiated expenses or, for
per diem payments, amounts paid for days or miles of travel not
taken. Id. §1.62-2(f).
1

2 The parties refer to the hourly healthcare workers employed
by AMN, including nurses and technicians, collectively as
“clinicians,” so we do as well.

App-4
Continental United States (CONUS) reimbursement
rates. 3
The details of how the AMN per diem payments
operate are central to this case. According to AMN, the
per diems paid to traveling clinicians are provided to
reimburse them for the cost of meals, incidentals, and
housing while working away from home. 4 A traveling
clinician is not required to document her expenses to
receive a per diem; she need only sign an affirmation
that her tax home is further than 50 miles from her
assigned facility. AMN treats traveling clinicians’ per
diem payments as nontaxable income and excludes
them from the regular rate of pay. Plaintiffs assert
that although the per diems are not included as part
of traveling clinicians’ regular hourly wage rate for
calculating overtime, AMN presents the combined
value of a traveling clinician’s hourly wages and per
diem benefits as “weekly pay” when recruiting
clinicians.
Although most clinicians are contracted to work
only three 12-hour shifts per week, the maximum
weekly per diem benefit compensates traveling
clinicians for seven days’ worth of expenses. If a
clinician works the weekly shifts required by her
employment contract, she is paid the maximum
AMN uses the CONUS rates to determine the maximum
amounts of the weekly per diem payments. During the class
period, AMN fixed the meal and incidental per diem allowance at
$245 per week, or $35 per day, for all clinicians, which “did not
exceed the applicable CONUS rate for any assignment location
at AMN.”
3

4 Traveling clinicians have the option of living in companyarranged housing but most choose to receive a lodging per diem.

App-5
weekly per diem benefit. Clinicians do not receive a
higher per diem if they work extra hours or shifts
beyond the weekly minimum. Clinicians can, however,
“bank hours” on days or weeks in which they work
extra hours, and later “offset missed shifts” if they
have enough banked hours.
The AMN policy underlying the regular rate of
pay issue before us is the company’s practice of
prorating traveling clinicians’ per diem payments
when they work fewer hours or shifts than required by
their employment contracts. Until the end of 2014, the
per diem payments were prorated based on hours
missed: for each hour a clinician failed to work, AMN
would deduct $18 from the weekly per diem benefits.
In 2015, AMN switched to a shift-based prorating
system: if a clinician contracted to work three shifts
per week misses a shift, “the per diem allowance …
advanced to her the week before [is] adjusted by onethird.” If a clinician works for part but not all of the
required hours in a shift, AMN will round to the
nearest shift. But if a clinician “works more than onehalf of each required shift, but still falls short of the
minimum required weekly hours … AMN may adjust
the per diem based on the proportionate number of
shifts a clinician did not work.” For example, if a
clinician required to work three 12-hour shifts per
week works only three 8-hour shifts, her per diem is
reduced by one-third to account for her missing the
equivalent of one shift.
AMN makes certain exceptions to this practice of
prorating per diem benefits. First, per diems are not
reduced if a clinician was prepared to work but the
hospital cancels her shift. Second, if a clinician works

App-6
a scheduled shift but does not, for any reason, work
more than half the required hours in the shift, the
clinician’s per diem benefit will not be prorated if the
clinician has “a sufficient amount of banked hours.”
Per diem payments are prorated for all other time
missed, including for absences due to illness for which
the clinician receives paid sick leave.
Most of AMN’s employees are assigned to work at
facilities more than 50 miles away from their
permanent residences. But AMN also employs “local
clinicians” who work at facilities within 50 miles of
their homes. Local clinicians also receive per diems.
For them, per diems are included as part of their
wages for both tax purposes and calculation of their
regular rate of pay for overtime purposes. So local
clinicians are paid at a higher hourly rate for overtime
hours than are travelling clinicians. AMN explains
that local clinicians’ per diems function as “an
incentive for working the minimum required hours.”
B.
Clarke and Wittmann worked as traveling
clinicians for AMN from January to April 2016 and
December 2014 to March 2015, respectively. Plaintiffs
filed suit in state court in May 2016; the case was
subsequently removed to federal court. The operative
amended complaint, filed in December 2016, alleges
claims for unpaid overtime under both the California
Labor Code and the FLSA, as well as other, derivative
state law claims. The parties agree that the same
standards apply to the federal and corresponding state
law claims. See California Division of Labor Standard
Enforcement, DLSE Enforcement Policies and
Interpretations Manual, §49.1.2 (2019) (“In not

App-7
defining the term ‘regular rate of pay’, [California’s]
Industrial Welfare Commission has manifested its
intent to adopt the definition of ‘regular rate of pay’
set out in the [FLSA].”). 5
After the district court certified California-wide
classes for the state law claims and conditionally
certified a nationwide FLSA collective, 6 the parties
filed cross motions for summary judgment focusing on
“the central question in the case: whether certain per
diem payments to class member employees should be
considered part of the employees’ ‘regular rate’ and
therefore considered when calculating overtime pay
rates.” The district court held that there were no
relevant material disputes of fact and granted
summary judgment in AMN’s favor on the FLSA and
state unpaid wages causes of action. We review the
district court’s grant of AMN’s motion for summary
judgment de novo. Flores v. City of San Gabriel, 824
F.3d 890, 897 (9th Cir. 2016).
II.
Generally, the regular rate of pay for FLSA
purposes includes “all remuneration for employment
paid to, or on behalf of, the employee.” 29 U.S.C.
§207(e). Non-exempt employees who work more than
40 hours in a week must be paid overtime for hours
This opinion, for clarity, analyzes the regular rate of pay issue
under the FLSA, with the understanding that, except as noted,
the same analysis applies to the California Labor Code.
5

6 The FLSA allows an employee to bring an action on behalf of
herself and “similarly situated” employees who file written
consent forms with the court to become parties to the action. 29
U.S.C. §216(b); see Smith v. T-Mobile USA Inc., 570 F.3d 1119,
1122-23 (9th Cir. 2009).

App-8
worked over 40 at an hourly rate of at least one-anda-half times their regular rate. Id. §207(a)(1). 7 But the
FLSA provides for exemptions, allowing employers to
exclude certain payments from the regular rate of pay
and so from the rate of overtime pay. See id. §207(e)(2).
FLSA exemptions are construed under “a fair
(rather than a ‘narrow’) interpretation.” Encino
Motorcars, LLC v. Navarro, 138 S. Ct. 1134, 1142
(2018). Determining what is included in the regular
rate of pay is a question that “cannot be stipulated by
the parties; instead, the rate must be discerned from
what actually happens under the governing
employment contract.” Newman v. Advanced Tech.
Innovation Corp., 749 F.3d 33, 37 (1st Cir. 2014)
(quoting O’Brien v. Town of Agawam, 350 F.3d 279,
294 (1st Cir. 2003)); see also 29 C.F.R. §778.108. Here,
AMN, as the employer, bears the burden of
establishing that its per diem payments qualify as an
exemption from the regular rate of pay under the
FLSA. Flores, 824 F.3d at 897 (internal quotation
marks omitted).

7 California law further provides that employees subject to the
state’s overtime law must be paid at least one-and-a-half times
their regular rate for any time worked over eight hours in a single
day and any hours on the seventh day of work in a single
workweek. Cal. Lab. Code §510.

App-9
A.
i.
We begin by considering how this Court has
assessed whether payments are excludable from the
FLSA’s regular rate of pay under §207(e)(2). 8
In Local 246 Utility Workers Union of Am. v. S.
Cal. Edison Co. (“Local 246”), an employer asserted
that supplemental payments designed to bring
disabled workers’ wages to their pre-disability rates
could be excluded from the employees’ regular rate of
pay under §207(e)(2), as they are “other similar
payments to an employee which are not made as
compensation for his hours of employment.” 83 F.3d
292, 296 (9th Cir. 1996). This Court disagreed, holding
that the payments could not be excluded from the
regular rate of pay because they operated as
compensation. Id. at 295. Local 246 explained that
because the “entire function of [the] supplemental
payments [was] to ensure that the workers [were] paid
for their … work at the rate that they used to be paid
for their pre-disability work,” the payments were
necessarily remuneration for employment and could
not be excluded from the regular rate. Id.
Flores v. City of San Gabriel, relying on Local 246,
reiterated that determining whether a payment can be
excluded from the FLSA’s regular rate depends on
whether the payment “is properly characterized as
compensation” for work. 824 F.3d at 900. Flores
concerned
cash-in-lieu-of-benefits
payments,
providing monthly payments to employees who
8 All references to statutory sections of the FLSA refer to the
U.S. Code, Title 29.

App-10
declined medical coverage through the employer. We
held those payments were not “other similar payments
to an employee which are not made as compensation
for his hours of employment” and so had to be included
in the calculation of workers’ regular rate of pay. Id.
at 898. Even though the payments were not tied to the
number of hours worked, we concluded, they were “not
similar to payments for non-working time or
reimbursement for expenses,” and so were not
excludable under §207(e)(2). Id. at 900-01. Although
Local 246 and Flores both involved §207(e)(2)’s “other
similar payments” clause, their conclusion that a
payment’s function controls whether the payment is
excludable from the regular rate under §207(e)(2),
applies here.
In determining a payment’s function, the tie
between payments and time worked is relevant but
not determinative in assessing whether those
payments are properly excludable from the regular
rate under §207(e)(2). Payments not tied to hours
worked may function as compensation for work, see
Flores, 824 F.3d at 900. Still, whether payments
increase, decrease, or both based on time worked
provides an important indication as to whether the
payments are functioning as compensation rather
than reimbursement.
In the context of per diem payments in particular,
the function test requires a case-specific inquiry based
on the particular formula used for determining the
amount of the per diem. Along with the monetary
relationship between payment and hours, other
relevant—but
certainly
not
dispositive—
considerations include whether the payments are

App-11
made regardless of whether any costs are actually
incurred, and whether the employer requires any
attestation that costs were incurred by the employee,
see pp. 5-6 & n.1, supra. In some cases, the amount of
the per diem payment relative to the regular rate of
pay may be relevant to whether the purported per
diem functions as compensation or reimbursement.
See, e.g., Gagnon v. United Technisource, Inc., 607
F.3d 1036, 1041 (5th Cir. 2010). And the function
analysis may also consider whether the payments are
tethered specifically to days or periods spent away
from home or instead are paid without regard to
whether the employer is away from home.
ii.
Applying the payment-function test from Flores
and Local 246 comports with out-of-circuit case law
that has addressed the reimbursement clause of
207(e)(2), as well as with guidance from the
Department of Labor (“DOL”). Every circuit to
consider whether a payment scheme is excludable
from the FLSA’s regular rate as reimbursement for
work-related expenses has assessed how the
payments function, taking into account factors similar
to those we have indicated.
In Newman v. Advanced Tech. Innovation Corp.,
749 F.3d 33 (1st Cir. 2014), for example, the First
Circuit focused on how a per diem functions to
determine whether it is excludable from the regular
rate of pay even though the amount of the per diem is
based on federal reimbursement rates. Id. at 40. The
facts of Newman are similar to those here. As here, the
per diems in Newman were based on the “relevant
Internal
Revenue
Service
Federal
Travel

App-12
Reimbursement rate,” and the Newman district court
held that the per diems “reasonably approximated
work-related expenses.” Id. at 35-36. But in reversing
the district court’s approval of the exclusion of the per
diem’s from the regular rate of pay, Newman
explained that the “animating concern of the FLSA
statutes … is to examine the substance of a purported
per diem payment and to ensure that it is actually
used to offset expenses an employee incurs due to time
spent away on the employer’s business. The goal is to
pierce the labels that parties affix to the payments and
instead look to the realities of the method of payment.”
Id. at 39 (emphasis added). Newman held that in
reducing per diem payments “for an early end to the
work week, [the employer] based those reductions on
the exact number of hours worked in the week,” and
that payments based on total hours worked could not
be excluded from the FLSA’s regular rate of pay. Id. at
39-40.
In Baouch v. Werner Enterprises, Inc., 908 F.3d
1108 (8th Cir. 2018), similarly, the Eighth Circuit held
putative expense payments to truck drivers based on
miles driven were properly considered part of the
FLSA’s regular rate of pay. Id. at 1116. Baouch
explained that before evaluating “whether the
[p]ayments approximated actual expenses,” the
district court properly assessed “whether the
[p]ayments were reimbursements for expenses
incurred solely for [the employer’s] benefit or
convenience.” Id. Because the payments were tethered
to the miles driven, a metric poorly linked to whether
the driver has to be away from home or how long she
needs to be away, the payments “function[ed] as a
wage rather than as true per diem reimbursement,”

App-13
the Eighth Circuit held, and so were properly included
in the FLSA’s regular rate of pay. Id.
Baouch’s mode of analysis is especially relevant
here. In granting AMN’s motion for summary
judgment, the district court in this case, relying on the
fact that the per diem payments are based on federal
rates and could reasonably be expected adequately to
reimburse clinicians for expenses incurred while
traveling on assignment, held that the per diem
payments do not change “from one based on
reimbursement of expenses to one tied to hours
worked” because they are reduced when clinicians
miss a required shift. But that analysis improperly
makes the amount of the payments—rather than how
the payments function—determinative. The fact that,
for some employees, a weekly per diem payment is in
an amount that could reimburse an employee’s
expenses if they functioned as expense payments is
not enough—the payment can both be reasonable in
amount as reimbursement for an employee for her
expenses and still function as a wage.
Gagnon v. United Technisource, Inc., 607 F.3d
1036 (5th Cir. 2010), provides yet another—but more
obvious—example of per diem payments functioning
as wages and so improperly excluded from the FLSA’s
regular rate of pay. The employer in Gagnon
artificially designated a portion of its employee’s
wages as a “per diem” and excluded those payments
from the regular rate as reimbursement for workrelated expenses. Id. at 1042. The Fifth Circuit noted
that the per diem was paid at an hourly rate; that the
per diem did not reasonably approximate actual
expenses; and that the court could “conceive of no

App-14
reason why a legitimate per diem would vary by the
hour and be capped at the forty-hour mark, which notso-coincidentally corresponds to the point at which
regular wages stop and the overtime rate applies.” Id.
at 1041-42. Gagnon therefore affirmed the district
court’s determination that the per diem payments
were improperly excluded from the regular rate of pay.
In contrast, Sharp v. CGG Land (U.S.), Inc., 840
F.3d 1211, (10th Cir. 2016), involved per diems that
did function as reimbursement for work-related
expenses and so were properly excluded from the
regular rate of pay. Sharp held that a flat meal per
diem, provided for each day an employee was required
to be away from home, was properly excluded from the
regular rate of pay. The per diem was not paid “when
employees worked from their home locations or when
food was provided at the remote locations.” 840 F.3d
at 1213. The Tenth Circuit noted that “employees
received the [per diem] payments only when [the
employer] required them to work away from home,”
and that the parties stipulated that the per diem
payments were “a reasonable meal allowance.” Id. at
1215. Because the per diems functioned to reimburse
expenses incurred while working away from home, the
payments were properly excluded under §207(e)(2).
Finally,
Department
of
Labor
(“DOL”)
interpretations of §207(e)(2) also support assessing
how payments operate to determine if they are
properly excluded from the FLSA’s regular rate of pay.
29 C.F.R. §778.224, effective as of January 15, 2020,
addresses §207(e)(2)’s “Other similar payments”
clause and explains that excludable payments “do not
depend on the hours worked, services rendered … or

App-15
other criteria that depend on the quality or quantity
of the employee’s work.” 29 C.F.R. §778.224(a). And
the DOL’s Field Operation Handbook (“FOH”) states:
If the amount of per diem … is based upon
and thus varies with the number of hours
worked per day or week, such payments are a
part of the regular rate. … [But] this does not
preclude an employer from making
proportionate payments for that part of a day
that the employee is required to be away from
home on the employer’s business. For
example, if an employee returns to his/her
home or employer’s place of business at noon,
the payment of only one-half the established
per diem rate for that particular day would
not thereby be considered as payment for
hours worked and could thus be excluded
from the regular rate.
FOH §32d05a(c). AMN argues that Baouch and
Gagnon erred by focusing on the first sentence of the
guidance rather than the second, which allows per
diems to include partial payments for time away from
home. But the second sentence permits an adjustment
if the employee returns home or to the employer’s
place of business; it does not sanction an adjustment
based on time worked while the employee is away from
home on the employer’s business. So both parts of the
guidance are consistent in focusing on the substance
or function of payments as payments for expenses
incurred while away from home rather than on their
form or label.
Plaintiffs urge us to embrace the per se rule that
“[p]er diem payments that vary with the amount of

App-16
work performed are part of the regular rate.” Baouch,
908 F.3d at 1116 (citing Gagnon, 607 F.3d at 1041-42;
Newman, 749 F.3d at 35-37). But determining
whether a per diem must be included in the regular
rate of pay is a case-specific inquiry that turns on
whether the payments function to reimburse
employees for expenses or instead operate to
compensate employees for hours worked. See Baouch,
908 F.3d at 1115. The fact that a payment varies with
hours worked is a relevant factor in that
determination, often a particularly relevant one. But,
as we next explain, we readil0y conclude that, taking
into account a number of factors, not solely their
connection to hours worked, the per diem payments
here function as wages rather than reimbursement for
work-related expenses. We therefore need not
determine whether per diem payments that vary with
hours worked must always be included in the FLSA’s
regular rate.
B.
Several features of AMN’s per diem payments
make evident that they function as remuneration for
hours worked rather than reimbursement for
expenses.
First, under AMN’s policies, the maximum weekly
per diem benefits compensate employees for seven
days of expenses. So AMN already pays clinicians a
per diem for days they are not working for AMN.
Reimbursing traveling clinicians for seven days of
expenses even though most clinicians only work three
days a week is justifiable because the clinicians are
scheduled to work away from home for a prolonged
period and are not expected to travel back and forth to

App-17
their home base each week. See 29 C.F.R.
§778.217(b)(3). But it is also notable that AMN’s
prorating policy does not change depending on the
clinician’s reason for missing a shift. For example,
under AMN’s policy, a clinician too ill to work, and
therefore not expected either to work or to return to
her tax home, would still be traveling and incurring
expenses on AMN’s behalf but would not receive per
diem payments. The through line here is that AMN’s
pro rata deductions from its per diem payments are
unconnected to whether the employee remains away
from home incurring expenses for AMN’s benefit.
Instead, the deductions connect the amount paid to
the hours worked while still away from home, thereby
functioning as work compensation rather than
expense reimbursement.
Second, clinicians are able to offset missed or
incomplete shifts with hours they have “banked” on
days or weeks in which they worked more than the
minimum required hours. There is no plausible
connection between working extra hours one week and
incurring greater expenses the next. AMN offers no
explanation for why “banked hours” should affect
whether a clinician receives the maximum per diem
payment during a week she works less than the
minimum required hours. The only reason to consider
“banked hours” in calculating a weekly per diem
payment is to compensate employees for total hours
worked, rather than for reasonable expenses incurred
on days spent away from home for work.
The “banking hours” system also undermines
AMN’s justification for prorating the per diem
payments, which the district court embraced in

App-18
granting AMN’s motion for summary judgment. The
district court reasoned that because a clinician does
not incur expenses for the benefit of AMN when she is
not working, AMN properly prorates her weekly per
diem payment when she misses a shift to avoid
reimbursing her for “personal expenses.” But neither
the district court nor AMN explain how “banked
hours” accumulated on days for which a clinician was
already paid a per diem can transform a subsequent
day that would have been considered “personal” into a
day for which AMN should reimburse the clinician’s
expenses.
Finally, and perhaps most tellingly, AMN pays
local clinicians the same per diems it would if the
clinicians were traveling. AMN explains that, unlike
the traveling clinicians’ per diems, which reimburse
employees for expenses incurred for AMN’s benefit,
local clinicians’ per diems function as wages and
provide incentives for employees to work the
minimum required hours. The district court
acknowledged this feature of AMN’s per diem
payments but held that “the premise that nontraveling employees received the same fixed per diem
is disputed” and that, anyway, “what other employees
may or may not be paid does not change the
underlying fact that traveling employees are receiving
per diem payments that reasonably approximate
travel costs incurred for the benefit of the employer.”
The district court erred for two reasons. For one
thing, the only disputed fact is whether local clinicians
incurred travel-related expenses, not whether they
received per diem payments. Whether local clinicians
incur travel-related expenses is not a material fact.

App-19
AMN treats local clinicians per diems as wages, not as
reimbursement for any travel-related expense.
Additionally, that local clinicians receive the same per
diems they would if they were traveling even though
they do not incur the same expenses—such as
housing—is quite pertinent in evaluating the nature
of the putative per diem payments made to travelling
clinicians. AMN’s explanation for the payments made
to local clinicians—that providing per diems to local
clinicians encourages them to work the required
hours—applies equally to travelling clinicians, and
confirms that the payments do function as
compensation—namely, as a bonus for good work
attendance. The comparison to local clinicians’
payments is an exceedingly strong indication that the
per diem payments made to both groups of clinicians
function as compensation for labor.
That both local and traveling clinicians receive
per diems also supports Plaintiffs’ assertion that these
payments are expected as part of a clinician’s pay
package and so function as supplemental wages. In
Baouch, the Eighth Circuit pointed to “seemingly
obvious indicators that [the payments] function[ed] as
a wage,” including that the total pay of truck drivers
enrolled in the program that provided payments based
on miles driven was “suspiciously close to the taxable
wage paid to non-participants.” Id. at 1117.
In sum, a combination of factors—the tie of the
per diem deductions to shifts not worked regardless of
the reason for not working; the “banking hours”
system; the default payment of per diem on a weekly
basis, including for days not worked away from home,
without regard to whether any expenses were actually

App-20
incurred on a given day; and the payment of per diem
in the same amount, but as acknowledged wages, to
local clinicians who do not travel—together indicate
that the payments functioned as compensation for
hours worked.
III.
AMN has failed to demonstrate that its per diems
may be excluded from the FLSA’s regular rate of pay
under §207(e)(2). We therefore REVERSE the district
court’s grant of summary judgment, and REMAND for
the district court to enter partial summary judgment
in Plaintiffs’ favor as to whether the per diem
payments to class member employees should be
considered part of the employees’ regular rate of pay
and to conduct further proceedings.

App-21
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
No. 19-55784
________________
VERNA MAXWELL CLARKE, an individual on behalf of
herself and others similarly situated; LAURA
WITTMANN, an individual on behalf of herself and
others similarly situated,
v.

Plaintiffs-Appellants,

AMN SERVICES, LLC, DBA Nursechoice,
Defendant-Appellee.
________________
Filed: May 7, 2021
________________
Before: BALDOCK *, J., BERZON, J., and
COLLINS, J., Circuit Judges.
________________
ORDER
________________
The panel has voted to deny AMN Services, LLC’s
petition for rehearing and petition for rehearing en
banc.
*
The Honorable Bobby R. Baldock, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App-22
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing and the petition for
rehearing en banc are denied.

App-23
Appendix C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________
No. 2:16-cv-04132
________________
VERNA MAXWELL CLARKE, an individual on behalf of
herself and others similarly situated; LAURA
WITTMANN, an individual on behalf of herself and
others similarly situated,
v.

Plaintiffs-Appellants,

AMN SERVICES, LLC, DBA Nursechoice,
Defendant-Appellee.
________________
Filed: June 26, 2018
________________
OPINION
________________
Both Plaintiffs and Defendant AMN Services,
LLC move for summary judgment on liability for the
wage-and-hour claims in this case. The motions
primarily seek to determine the central question in
the case: whether certain per diem payments to class
member employees should be considered part of the
employees’ “regular rate” and therefore considered
when calculating overtime pay rates. 1 Both parties
1 The overtime claims, the UCL claim, the waiting time claim,
and the PAGA claim all depend on the resolution of this question.

App-24
also move for summary judgment on the separate
wage statement claim.
There are no material disputes of fact relevant to
the issues presented in these motions. Both sides
agree that the employees—traveling clinicians—
received per diem payments when away from their
homes. Def. SUF ¶16. The payments cover all seven
days of a week even if the employee does not work all
of the days. Pl. SSUF ¶70-71. The total per diem was
paid so long as the employee worked his contracted
number of hours in a given week. If the employee
worked less than that, the per diem payment was
reduced initially proportionate to the number of hours
not worked and later based on shifts missed. Def. SUF
¶¶36-45. The amount of the per diem payment was
based on the federal government Continental United
States (CONUS) reimbursement rates and no per
diem exceeded the federal CONUS per diem amount.
Def. SUF ¶¶22, 25-26. There also appears to be no
dispute that the base per diem paid “reasonably
approximates” the expenses incurred by traveling
employees. See Def. SUF ¶47. Employees did not
receive a higher per diem payment for working in
excess of the contracted hours in a week. Def. SUF
¶27.
An employee’s overtime rate is based on his
“regular rate.” 29 U.S.C. §207(a). 2 The “regular rate”
is “deemed to include all remuneration for
employment paid to, or on behalf of, the employee.” 29
U.S.C. §207(e). However, “reasonable payments for
2 The parties agree that the same standards apply to the federal
and corresponding state law claims.

App-25
traveling expenses, or other expenses, incurred by an
employee in the furtherance of his employer’s
interests and properly reimbursable by the employer”
are excluded from the “regular rate.” 29 U.S.C.
§207(e)(2). “Where an employee incurs expenses on his
employer’s behalf or where he is required to expend
sums solely by reason of action taken for the
convenience of his employer, section 7(e)(2) is
applicable to reimbursement for such expenses.
Payments made by the employer to cover such
expenses are not included in the employee’s regular
rate (if the amount of the reimbursement reasonably
approximates the expenses incurred). Such payment
is not compensation for services rendered by the
employees during any hours worked in the workweek.”
29 C.F.R. §778.217(a).
The primary question is whether Defendants’
reduction of the per diem amount when an employee
worked less than his contracted hours per week
changed the per diem payment from one based on
reimbursement of expenses to one tied to hours
worked. Defendant claims that the reduction is
intended to account for employee time spent away
from home that was not for the benefit of Defendant,
the employer. Under Defendant’s rubric, if an
employee worked the full amount of contracted hours
in a week, Defendant would deem the entire week
away from home as for the benefit of Defendant. But
if, for example, the employee only worked two 12-hour
shifts instead of three, in Defendant’s view one-third
of the week away from home was not for Defendant’s
benefit because a substantial portion of the week was
spent away from home without doing actual work for
Defendant.

App-26
The Court sees no reason why this per diem
reduction practice should alter the characterization of
the per diem as not part of the “regular wage.”
Consider a hypothetical where an employee was paid
a per diem expense payment to attend three days of
meetings, but, instead, skips a day of meetings to
enjoy himself away from home. The employer could
presumably refuse to pay the employee the per diem
for the day of skipped meetings without changing the
fact that the expenses on the other two days when the
employee did go to the meetings were incurred for the
benefit of the employer. The only difference between
that hypothetical and this case is that Defendant does
regularly pay per diems for days away from home but
not worked—the days between shifts. But Plaintiffs do
not seem to have an objection to that practice in
principle. Instead, they seem to believe that
Defendant should not reduce the per diem payments
for time not worked. But reducing payments for time
not worked would, if anything, logically make the
payments better at reflecting expenses incurred for
the benefit of the employer, not worse. By reducing the
payments for time not worked, Defendant would
probably be erring on the side of not paying employees
for work-related expenses, rather than compensating
them for personal expenses.
Plaintiffs rely heavily on the Department of Labor
Wage & Hour Division Field Operations Handbook
(FOH) in support of their position. The relevant
section of the FOH states:
If the amount of per diem or other subsistence
payment is based upon and thus varies with
the number of hours worked per day or week,

App-27
such payments are a part of the regular rate
in their entirety. However, this does not
preclude an employer from making
proportionate payments for that part of a day
that the employee is required to be away from
home on the employer’s business. For
example, if an employee returns to his/her
home or employer’s place of business at noon,
the payment of only one-half the established
per diem rate for that particular day would
not thereby be considered as payment for
hours worked and could thus be excluded
from the regular rate.
FOH §32d05a(c).
Plaintiffs use this authority to claim that because
Defendant’s per diem system “varies with the number
of hours worked per day or week”—in that it reduces
payments based on hours of work missed—the per
diem payments are part of the regular rate in its
entirety. This argument fails for several reasons.
First, the FOH is not authoritative guidance on the
Labor Code or Labor Regulations. See Probert v.
Family Centered Servs. of Alaska, Inc., 651 F.3d 1007,
1012 (9th Cir. 2011) (“[I]t does not appear to us that
the FOH is a proper source of interpretive guidance.”).
Second, Plaintiffs’ argument takes the FOH out of
context and essentially ignores the second part of the
quoted passage. After stating that expense
reimbursements should not vary with the number of
hours worked, the FOH immediately approves of the
practice of cutting a per diem proportionately if only
part of a day was spent away from home or the
employee’s normal workplace. This is what Defendant

App-28
was doing, and it is explicitly contemplated and
approved of in the FOH.
Plaintiffs point to Newman v. Advanced Tech.
Innovation Corp., 749 F.3d 33 (1st Cir. 2014), in
support of an interpretation of the FOH that allows
only for reductions based on days or half-days missed,
not individual hours. The Newman court did take that
position, presumably because it believed that the first
and second parts of the above quoted section of the
FOH would have been contradictory otherwise. 3 See
id. at 37-38. This Court concludes otherwise. The
second portion of the section is intended to clarify how
to apply the first portion. In light of the entire section,
the best interpretation is that “based upon and thus
varies with the number of hours worked per day or
week” means that the expense reimbursement is
purely calculated based on hours, not on any estimate
of actual expenses, e.g., an employee gets an extra $5
per hour when away from home regardless of whether
this has any relationship to actual expenses. Here it is
uncontroverted that Defendant starts with a
reasonable reimbursement level connected to
estimated actual expenses and then reduces it for time
it deems not to have been used for Defendant’s benefit.
In any event, the FOH isn’t binding. The statute and
regulations support a flexible, substance-based
approach to the regular rate calculation, not the
mechanical analysis put forward by Plaintiffs. See also
3 The Newman court also seemed to be unnecessarily tied to the
FOH language, which it recognized as non-binding, presumably
because that is how the parties framed the issue. See 749 F.3d at
37 (“Both parties focus their arguments on Section 32d05a(c) of
the Handbook.”).

App-29
Flores v. City of San Gabriel, 824 F.3d 890, 899 (9th
Cir. 2016) (interpreting the “other similar payments”
clause of §207(e)(2) “does not turn on whether the
payment is tied to an hourly wage, but instead turns
on whether the payment is a form of compensation for
performing work”).
Plaintiffs also argue that the per diems are not
really for travel expenses because Defendant’s
employees who are not traveling away from home also
get the same fixed per diem. First, the premise that
non-traveling employees received the same fixed per
diem is disputed. See Def. Resp. to Pl. SSUF ¶72-73.
In any event, while there is authority that suggests
blanket payment of per diems to all employees may
affect the tax status of the per diem payments, see,
e.g., 26 C.F.R. §1.62-2(j), what other employees may or
may not be paid does not change the underlying fact
that traveling employees are receiving per diem
payments that reasonably approximate travel costs
incurred for the benefit of the employer. The overtime
rate status of the two sets of employees would just be
different—the non-traveling employees would have
the per diem included in their regular rate and the
traveling employees would not.
The Court now turns to the wage statement claim.
Plaintiffs contend that Defendant’s wage statements
do not comply with California law because they do not
show the number of hours worked at each hourly rate.
See Cal. Labor Code §226(a). It is undisputed that the
wage statements do not separately list the number of
hours worked at the regular rate. Nonetheless,
Defendant argues it should not be held liable because
employees can “promptly and easily determine” the

App-30
number of regular hours from the wage statement
alone using simple math. See Cal. Labor Code
§226(e)(2)(B). “‘[P]romptly and easily determine’
means a reasonable person would be able to readily
ascertain the information without reference to other
documents or information.” Cal. Labor Code
§226(e)(2)(C).
Summary judgment for both sides is denied with
respect to the wage statement claim. The wage
statements are confusing and poorly labeled. The row
labeled “Regular Hours” apparently includes all hours
worked, not just those at the regular rate, but it is
matched to the regular rate. However, the row labeled
“OT Premium” apparently lists only the hours worked
that qualified for overtime—as one might expect—but
then lists only the overtime differential rather than
the total overtime rate. Defendant contends that
simple math is all that is needed to determine the
regular hours. This may be true but is beside the
point. The problem is not that complicated
calculations are needed: the problem is that a
reasonable employee may not be able to understand
what the wage statement is telling him in order to
know to make the correct calculations in the first
place. After some thought, a typical person might be
able to reason through the wage statement, but the
correct interpretation is certainly not obvious on first
review. As the Court cannot say as a matter of law that
“a reasonable person would be able to readily
ascertain the information without reference to other
documents or information” the motions for summary
judgment are denied on this issue.

App-31
Plaintiff’s motion is DENIED. Defendant’s motion
is DENIED with respect to the wage statement claim.
It is GRANTED in all other respects.
IT IS SO ORDERED.
Date: June 26, 2018
[handwritten: signature]
Dale S. Fischer
United States District Judge

App-32
Appendix D
RELEVANT STATUTE AND REGULATION
29 U.S.C. §207
(a) Employees engaged in interstate commerce;
additional applicability to employees pursuant to
subsequent amendatory provisions
(1) Except as otherwise provided in this
section, no employer shall employ any of his
employees who in any workweek is engaged in
commerce or in the production of goods for
commerce, or is employed in an enterprise
engaged in commerce or in the production of goods
for commerce, for a workweek longer than forty
hours
unless
such
employee
receives
compensation for his employment in excess of the
hours above specified at a rate not less than one
and one-half times the regular rate at which he is
employed.
(2) No employer shall employ any of his
employees who in any workweek is engaged in
commerce or in the production of goods for
commerce, or is employed in an enterprise
engaged in commerce or in the production of goods
for commerce, and who in such workweek is
brought within the purview of this subsection by
the amendments made to this chapter by the Fair
Labor Standards Amendments of 1966—
(A) for a workweek longer than forty-four
hours during the first year from the effective
date of the Fair Labor Standards
Amendments of 1966,

App-33
(B) for a workweek longer than forty-two
hours during the second year from such date,
or
(C) for a workweek longer than forty
hours after the expiration of the second year
from such date,
unless such employee receives compensation for
his employment in excess of the hours above specified
at a rate not less than one and one-half times the
regular rate at which he is employed.
*

*

*

(e) “Regular rate” defined
As used in this section the “regular rate” at which
an employee is employed shall be deemed to include
all remuneration for employment paid to, or on behalf
of, the employee, but shall not be deemed to include-(1) sums paid as gifts; payments in the nature
of gifts made at Christmas time or on other special
occasions, as a reward for service, the amounts of
which are not measured by or dependent on hours
worked, production, or efficiency;
(2) payments made for occasional periods
when no work is performed due to vacation,
holiday, illness, failure of the employer to provide
sufficient work, or other similar cause; reasonable
payments for traveling expenses, or other
expenses, incurred by an employee in the
furtherance of his employer's interests and
properly reimbursable by the employer; and other
similar payments to an employee which are not
made as compensation for his hours of
employment;

App-34
(3) Sums 1 paid in recognition of services
performed during a given period if either, (a) both
the fact that payment is to be made and the
amount of the payment are determined at the sole
discretion of the employer at or near the end of the
period and not pursuant to any prior contract,
agreement, or promise causing the employee to
expect such payments regularly; or (b) the
payments are made pursuant to a bona fide profitsharing plan or trust or bona fide thrift or savings
plan, meeting the requirements of the
Administrator
set
forth
in
appropriate
regulations which he shall issue, having due
regard among other relevant factors, to the extent
to which the amounts paid to the employee are
determined without regard to hours of work,
production, or efficiency; or (c) the payments are
talent fees (as such talent fees are defined and
delimited by regulations of the Administrator)
paid to performers, including announcers, on
radio and television programs;
(4) contributions irrevocably made by an
employer to a trustee or third person pursuant to
a bona fide plan for providing old-age, retirement,
life, accident, or health insurance or similar
benefits for employees;
(5) extra compensation provided by a
premium rate paid for certain hours worked by
the employee in any day or workweek because
such hours are hours worked in excess of eight in
a day or in excess of the maximum workweek
1

So in original. Probably should not be capitalized.

App-35
applicable to such employee under subsection (a)
or in excess of the employee's normal working
hours or regular working hours, as the case may
be;
(6) extra compensation provided by a
premium rate paid for work by the employee on
Saturdays, Sundays, holidays, or regular days of
rest, or on the sixth or seventh day of the
workweek, where such premium rate is not less
than one and one-half times the rate established
in good faith for like work performed in
nonovertime hours on other days;
(7) extra compensation provided by a
premium rate paid to the employee, in pursuance
of an applicable employment contract or
collective-bargaining agreement, for work outside
of the hours established in good faith by the
contract or agreement as the basic, normal, or
regular workday (not exceeding eight hours) or
workweek (not exceeding the maximum
workweek applicable to such employee under
subsection (a), 2 where such premium rate is not
less than one and one-half times the rate
established in good faith by the contract or
agreement for like work performed during such
workday or workweek; or
(8) any value or income derived from
employer-provided grants or rights provided
pursuant to a stock option, stock appreciation
right, or bona fide employee stock purchase

2

So in original. Probably should have closed parentheses.

App-36
program which is not otherwise excludable under
any of paragraphs (1) through (7) if—
(A) grants are made pursuant to a
program, the terms and conditions of which
are communicated to participating employees
either at the beginning of the employee's
participation in the program or at the time of
the grant;
(B) in the case of stock options and stock
appreciation rights, the grant or right cannot
be exercisable for a period of at least 6 months
after the time of grant (except that grants or
rights may become exercisable because of an
employee's death, disability, retirement, or a
change in corporate ownership, or other
circumstances permitted by regulation), and
the exercise price is at least 85 percent of the
fair market value of the stock at the time of
grant;
(C) exercise of any grant or right is
voluntary; and
(D) any determinations regarding the
award of, and the amount of, employerprovided grants or rights that are based on
performance are—
(i) made based upon meeting
previously
established
performance
criteria (which may include hours of
work, efficiency, or productivity) of any
business unit consisting of at least 10
employees or of a facility, except that,
any determinations may be based on

App-37
length of service or minimum schedule of
hours or days of work; or
(ii) made based upon the past
performance (which may include any
criteria) of one or more employees in a
given period so long as the determination
is in the sole discretion of the employer
and not pursuant to any prior contract.
29 CFR §778.217
(a) General rule. Where an employee incurs
expenses on his employer's behalf or where he is
required to expend sums by reason of action taken for
the convenience of his employer, section 7(e)(2) is
applicable to reimbursement for such expenses.
Payments made by the employer to cover such
expenses are not included in the employee's regular
rate (if the amount of the reimbursement reasonably
approximates the expense incurred). Such payment is
not compensation for services rendered by the
employees during any hours worked in the workweek.
(b) Illustrations.
Payment
by
way
of
reimbursement for the following types of expenses will
not be regarded as part of the employee's regular rate:
(1) The actual amount expended by an
employee in purchasing supplies, tools, materials,
cell phone plans, or equipment on behalf of his
employer or in paying organization membership
dues or credentialing exam fees where relevant to
the employer's business.
(2) The actual or reasonably approximate
amount expended by an employee in purchasing,

App-38
laundering or repairing uniforms or special
clothing which his employer requires him to wear.
(3) The actual or reasonably approximate
amount expended by an employee, who is
traveling “over the road” on his employer's
business, for transportation (whether by private
car or common carrier) and living expenses away
from home, other travel expenses, such as taxicab
fares, incurred while traveling on the employer's
business.
(4) “Supper money”, a reasonable amount
given to an employee, who ordinarily works the
day shift and can ordinarily return home for
supper, to cover the cost of supper when he is
requested by his employer to continue work
during the evening hours.
(5) The actual or reasonably approximate
amount expended by an employee as temporary
excess home-to-work travel expenses incurred
(i) because the employer has moved the plant to
another town before the employee has had an
opportunity to find living quarters at the new
location or (ii) because the employee, on a
particular occasion, is required to report for work
at a place other than his regular workplace.
The foregoing list is intended to be illustrative
rather than exhaustive.
(c) Payments excluding expenses.
(1) It should be noted that only the actual or
reasonably approximate amount of the expense is
excludable from the regular rate. If the amount
paid as “reimbursement” is disproportionately

App-39
large, the excess amount will be included in the
regular rate.
(2) A reimbursement amount for an employee
traveling on his or her employer's business is per
se reasonable, and not disproportionately large, if
it:
(i) Is the same or less than the maximum
reimbursement payment or per diem
allowance permitted for the same type of
expense under 41 CFR subtitle F (the Federal
Travel Regulation System) or IRS guidance
issued under 26 CFR 1.274–5(g) or (j); and
(ii) Otherwise meets the requirements of
this section.
(3) Paragraph (c)(2) of this section creates no
inference that a reimbursement for an employee
traveling on his or her employer's business
exceeding the amount permitted under 41 CFR
subtitle F (the Federal Travel Regulation System)
or IRS guidance issued under 26 CFR 1.274–
5(g) or (j) is unreasonable for purposes of this
section.
(d) Payments for expenses personal to the
employee. The expenses for which reimbursement is
made must in order to merit exclusion from the
regular rate under this section, be expenses incurred
by the employee on the employer's behalf or for his
benefit or convenience. If the employer reimburses the
employee for expenses normally incurred by the
employee for his own benefit, he is, of course,
increasing the employee's regular rate thereby. An
employee normally incurs expenses in traveling to and
from work, buying lunch, paying rent, and the like. If

App-40
the employer reimburses him for these normal
everyday expenses, the payment is not excluded from
the regular rate as “reimbursement for expenses.”
Whether the employer “reimburses” the employee for
such expenses or furnishes the facilities (such as free
lunches or free housing), the amount paid to the
employee (or the reasonable cost to the employer or
fair value where facilities are furnished) enters into
the regular rate of pay as discussed in §778.116. See
also §531.37(b) of this chapter.

